           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     Disability Insurance Beneficiaries
           Convicted of Crimes
        Against the Social Security
        Administration’s Programs


  September 2007           A-06-06-16132




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY

MEMORANDUM

Date:      September 24, 2007                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Disability Insurance Beneficiaries Convicted of Crimes Against the Social Security
           Administration’s Programs (A-06-06-16132)

           OBJECTIVE
           Our objective was to examine the extent to which individuals receiving Disability
           Insurance benefits who were convicted of crimes against the Social Security
           Administration continued to receive benefits after being convicted and whether
           overpayments caused by these crimes were recovered.

           BACKGROUND
           The Social Security Administration (SSA) administers the Disability Insurance (DI)
           program which provides benefits based on disability. Most disability claims are initially
           processed through a network of Social Security field offices and State disability
           determination services (DDS). SSA field office staff obtains applications for disability
           benefits, disability report forms and authorization for disclosure of information forms.
           They also verify non-medical eligibility requirements, which may include age,
           employment, marital status or Social Security coverage information. After initial
           processing, the field office sends the case to a DDS to develop medical evidence and
           evaluate the disability.

           Once SSA establishes that an individual is eligible for benefits under the DI program,
           the Agency turns its efforts toward ensuring the individual continues receiving benefits
           only as long as they continue to meet SSA’s eligibility criteria. Section 221(i) of the
           Social Security Act requires a periodic continuing disability review (CDR) for disabled
           beneficiaries at least every 3 years except where a finding has been made that the
           disability is permanent. 1 The purpose of the CDR is to determine whether the
           individual’s disability has improved since the most recent favorable determination. 2
           A claimant who is dissatisfied with the initial determination on his/her claim may pursue
           reconsideration to receive a reexamination of the claim. If an individual disagrees with a

           1
               Program Operations Manual System (POMS), DI 13004.005.
           2
               POMS, DI 28001.001.
Page 2 - The Commissioner

reconsideration or revised reconsideration determination, the next level of appeal is a
hearing before an Administrative Law Judge (ALJ) of the Office of Disability
Adjudication and Review (ODAR).

Fraud is an inherent risk in SSA’s disability programs. One type of fraud is committed
by individuals who feign or exaggerate symptoms to become eligible for disability
benefits. Another involves individuals who fail to report medical improvements and/or
return to work. The monitoring of medical improvement or return to work of DI
beneficiaries to ensure those who are no longer disabled are removed from the
disability program is one way that SSA employees can prevent potential violations.

RESULTS OF REVIEW
We identified 272 individuals who were convicted of criminal and civil acts against
SSA’s programs and were, or had been, receiving DI benefits during
Fiscal Years (FY) 2003 through 2005. At the time of our audit, 96 of the 272 individuals
were receiving monthly benefit payments after their convictions. Of these
96 beneficiaries, 81 received DI benefits and 15 received retirement benefits from SSA.
We found no SSA policy that prohibits individuals convicted of crimes against SSA’s
programs from later receiving any and all benefits to which they are entitled.

Overpayments         Information available from the National Investigative Case
Related to the       Management System indicates that the amount of loss for the
Convictions          272 cases totaled $18.8 million. 3 Individuals convicted of crimes
                     against SSA that result in an overpayment are liable for repayment
of the full amount of the overpayment. SSA is not supposed to waive such
overpayments since the fraud conviction precludes a finding of “without fault.” If benefit
payments become due after the conviction, the benefits are to be withheld at the full
monthly amount until the overpayment is recovered. However, if SSA inadvertently
waives the overpayment, its policy states that it should not pursue further recovery
efforts although it can accept voluntary payments. 4




3
    We did not verify the accuracy of the amounts reported in NICMS.
4
    POMS, GN 02201.055.
Page 3 - The Commissioner

                    By not withholding benefits at the full monthly amount, SSA was not
Overpayment         effectively recovering $1 million in outstanding debts owed by 40 of
Recovery            the 96 individuals currently receiving SSA benefits who were
Efforts             convicted of criminal and civil acts against SSA’s programs. As
                    shown in Table 1, SSA failed to withhold $3,813 in monthly benefits
paid to 4 individuals who improperly received $72,414 in benefits.

         Table 1: Individuals Currently Receiving Benefit Payments from SSA
                     with No Ongoing Recovery of Overpayments
                                           Monthly SSA       Monthly Amount
                Balance Owed as of      Benefits Paid to the   Collected by
                    June 2007               Individual             SSA
          1            49,409                   898                 0
          2            13,932                 1,339                 0
          3             7,318                   775                 0
          4             1,755                   801                 0
        Total         $72,414                $3,813               $0

For the remaining 36 individuals collectively overpaid more than $976,000 related to
their convictions, SSA withheld only nominal5 amounts from monthly benefit payments,
which total $37,481 (See Appendix C). Two examples are provided below.

•     One individual improperly paid $28,947, currently receives $1,067 per month from
      SSA. To satisfy this debt, SSA withholds only $30 from each monthly payment. At
      this rate of collection, it will take about 78 years for SSA to recover the amount due.

•     One individual improperly paid $58,399, currently receives $821 per month in SSA
      disability benefits. Although SSA withholds only $75 per month from the benefit
      payment towards settling a previous overpayment of $20,000, SSA has taken no
      action to withhold additional funds to recover the fraud loss. At the current rate of
      withholding, SSA will not recover these losses until around the year 2089.

The payment terms agreed to by SSA are so unfavorable that SSA will never fully
recover the amounts owed from these individuals. SSA is authorized to withhold
100 percent of current benefit payments to recover amounts overpaid to these
individuals related to their crimes. 6 If SSA exercised this option against the
40 individuals discussed above, it could reduce the average time required to collect
these debts from 244 months to 28 months.



5
 SSA withholds an average of 17 percent from the current benefits paid to these individuals. The range
of withholdings is a low of 1 percent and a high of 61 percent of monthly benefits. The median
withholding percentage is 11 percent.
6
    POMS, GN 02201.055.
Page 4 - The Commissioner

Fraud           SSA Policy provides that SSA should annotate the Master Beneficiary
Indicators      Record (MBR) with a Fraud Indicator and in the Special Message
                Field when fraud contributed to an overpayment. 7 However, only 71
                of the 96 records contained the required annotation on their respective
MBRs of any fraudulent activity as shown in Table 2.


                          Table 2: Convicted And Receiving Benefits

         Type of                                    Other       Disability
         Ongoing                      No Fraud      Fraud      Suspended
         Benefit      Cessations      Indicator   Indication    for Work       Total

       Retirement            12           2           0               1          15

       Disability            29          23          20               9          81

       Totals                41          25          20             10           96


Type of         Of the 272 records we reviewed, 170 (62.5 percent) involved
Crime           concealment of work or performance of significant physical and/or
                mental activities in work for pay. Another 34 involved exaggeration of
                symptoms to become eligible for disability benefits. Also,
24 concealed activities normally performed for pay. For a full list of the 272 cases, see
Table 3.




7
    POMS, GN 02201.050.
Page 5 - The Commissioner

                                 Table 3: Type of Crime
                                 Description                        Number
              Concealed Work Activity                                  170
              Disability (Individual exaggerated symptoms)              34
              Concealed Nonwork Activity                                24
              Representative Payee                                      21
              Deceased Payee                                              6
              Multiple Beneficiaries (Individual received
                                                                          4
              overpayment on multiple beneficiary SSNs)
              Fraudulent Application                                      4
              Forge Treasury Checks                                       3
              Theft/Misuse Government Property                            1
              Social Security Number Misuse/Illegal Alien                 1
              Social Security Number Misuse – Work                        1
              Identity Theft – Employment                                 1
              False Identity                                              1
              Assault/Harassment                                          1
              TOTAL                                                    272


                     We reviewed earnings information for the 96 individuals and
Evidence of
                     identified 17 who earned wages in FY 2006 also received disability
Continued Work
                     benefits at the time of our audit. Five of the 17 individuals had
                     significant earnings in FY 2006, indicating they were working and
may no longer be eligible for disability benefits.

SSA has a control in place to compare employer-reported earnings to beneficiary data
files. Beneficiaries are required to report their income that may affect eligibility. If SSA
finds that an employer reported wages that the recipient did not report, it generates an
alert that is sent to an SSA program service center or field office. SSA field office staff
Page 6 - The Commissioner

should investigate the beneficiary’s possible return to work. If the beneficiary has
completed a trial work period and is working, SSA should conduct a work CDR to
determine if the disability has ceased due to work activity and, if the disability has
ceased, stop benefit payments as appropriate. 8

If a disability beneficiary is performing work after the trial work period and the work is
determined to be substantial gainful activity (SGA), SSA should find that the individual’s
disability has ceased, regardless of the individual’s medical condition, age, education or
work experience. Substantial gainful activity is the performance of significant physical
and/or mental activities in work for pay or profit, or in work of a type generally performed
for pay or profit, regardless of the legality of the work. In 2007, the dollar threshold for
SGA was established as an average of $900 or more per month ($1,500 or more per
month if blind). 9

                   SSA’s definition of
Type of                                                          Table 4: Convictions by Type of
                   disability 10 requires that an
Disability                                                                  Disability
                   individual’s inability to work
                   be related to a medically                            Disability                Number
determinable physical or mental
impairment(s), and every physical or mental                  Disorders of the Back                    58
impairment is categorized into 1 of 16 body
systems. The reviewing physician/examiner                    Affective Disorders                      40
team is responsible for the diagnosis and its                Osteoarthrosis                           16
accuracy. 11 Among the 272 cases we
reviewed, the 5 most common types of                         Chronic Ischemic Heart                   11
disabilities represented by the convictions are              Disease
shown in Table 4.
                                                             Anxiety Related Disorders                10
                      Of the 272 convictions we
Level of              reviewed, 216 claims were approved at the DDS level and 56 were
Approval              approved by ALJs at ODAR. Of the 216 approved by a DDS, 122 had
                      been selected for CDRs and their benefits continued after the CDR.




8
  We audited SSA’s process for identifying disabled beneficiaries who needed a work CDR. See SSA,
OIG Disabled Title II Beneficiaries with Earnings Reported on the Master Earnings File (A-01-03-13019),
issued July 12, 2004. In 2008, we will follow-up on our prior audit.
9
    POMS, DI 10501.015.
10
 SSA defines disability, in part, as the inability to perform substantial work activity due to a physical or
mental impairment. See 42 U.S.C. § 416(i)(1) and 423 (d)(1).
11
     POMS, DI 26510.015.F
Page 7 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
We identified 272 individuals who were approved for DI benefits and subsequently
convicted for various crimes against SSA’s programs during Fiscal Years 2003 through
2005. At the time of our audit, 96 of these individuals continued to receive benefit
payments after their convictions. SSA was not effectively recovering $1 million in
overpayments owed by 40 of these 96 individuals. In addition, only 71 of the 96 records
contained the required annotation on their respective MBRs of any fraudulent activity.
Also, earnings information for the 96 individuals who were receiving benefits at the time
of our audit revealed that 17 had earnings in FY 2006, indicating they were working and
may no longer be eligible for disability benefits.

We recommend that SSA:

1. Enhance overpayment collections in the cases we identified where monthly benefits
   are not being withheld at the full monthly amount until the overpayment is recovered.

2. Remind staff to annotate the MBR with special message and fraud indicator when
   recording an overpayment related to a conviction.

3. Evaluate current income verification procedures and review the claims associated
   with the 17 individuals who are receiving benefits and had recent earnings. Any
   potentially fraudulent cases should be referred to the OIG Office of Investigations.

AGENCY COMMENTS
SSA agreed with our recommendations and provided technical comments that we
incorporated into the final report. The Agency’s comments are included in Appendix D.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Overpayment Recovery Schedule

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgements
                                                      Appendix A

Acronyms
ALJ    Administrative Law Judge
CDR    Continuing Disability Review
DDS    Disability Determination Service
DI     Disability Insurance
FY     Fiscal Year
MBR    Master Beneficiary Record
ODAR   Office of Disability Adjudication and Review
POMS   Program Operations Manual System
SGA    Substantial Gainful Activity
SSA    Social Security Administration
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we analyzed Office of Investigations data for individuals
who were approved for Disability Insurance (DI) benefits and later convicted of fraud
against the Social Security Administration’s (SSA) programs. In conducting our audit,
we:

•   Obtained data concerning all SSA fraud cases for Fiscal Years 2003 through 2005
    from the National Investigate Case Management System. We reviewed a nation-
    wide report to identify 272 DI beneficiaries convicted and sentenced for crimes
    against SSA’s programs during this period.

•   Obtained queries for each individual from the Disability Determination Service and
    Office of Disability Adjudication and Review systems.

•   Reviewed laws and regulations related to the disability review process.

•   Determined that 96 of the 272 beneficiaries were receiving benefit payments at the
    time of our audit.

•   Reviewed earnings records for the DI beneficiaries receiving benefits at the time of
    our audit.

•   Obtained and reviewed Master Beneficiary Records for individuals receiving benefits
    at the time of our audit to determine whether
    o fraud indicators had been recorded,
    o overpayments had been recorded, and
    o the amount recovered as of June 2007.

We performed our work in Baltimore, Maryland and Dallas, Texas. The entity audited
was SSA’s field staff under the Deputy Commissioner for Operations. Our review was
conducted from March to June 2006 and January to June 2007 in accordance with
generally accepted government auditing standards.
                                                                                 Appendix C

      Overpayment Recovery Schedule
                   Balance                                  Percentage           Months            Years
     Amount to     Owed as       Monthly      Amount         of Current       Required to      Required to
         be        of June        Benefit     Withheld         Benefit        Pay Debt at       Pay Debt at
     Recovered      2007         Amount        by SSA        Withheld         Current Rate     Current Rate
 1      $99,999      $89,084           $823        $500         60.75               178               15
 2       87,962       84,466            693          64          9.24              1320              110
 3       91,332       67,708          1,340         133          9.89               511               43
 4       97,797       65,143          1,771         200         11.29               326              27
 5       58,399       58,399            821          75          9.14               779               65
 6       56,499       50,516            833         200         24.02               253               21
 7       42,564       42,564          1,733         150          8.66               284               24
 8       44,356       41,759            902         100         11.09               418              35
 9       57,399       37,963            956         500         52.30                76                6
10       59,268       35,237          1,331         250         18.78               141               12
11       83,306       33,898            890         100         11.24               339               28
12       33,369       32,169            885         100         11.30               322               27
13       41,679       31,005            979         100         10.21               310               26
14       28,947       28,187          1,067          30          2.81               940               78
15       46,223       27,449          1,538         400         26.01                69                6
16       33,788       26,917            984         200         20.33               135               11
                                This individual had overpayments associated with 2 separate fraud
         11,237       11,237    convictions. SSA is currently collecting on the first overpayment of $33,788.
17       38,259       22,734          1,047          50          4.78               455               38
18       28,997       20,792          1,236         100          8.09               208              17
19       24,265       19,555            487         100         20.53               196               16
20       21,125       17,425          1,042         100          9.60               174               15
21       91,974       15,991          1,750         800         45.71                20                2
22       19,633       15,826          1,327         100          7.54               158               13
23       16,474       13,633          1,049         368         35.08                37                3
24       16,666       12,835            738         150         20.33                86                7
25       80,242       12,488            909         489         53.80                26                2
26       22,909       10,734            657         100         15.22               107               9
27        9,486        8,986          1,364         100          7.33                90                7
28       37,884        8,314          1,038         235         22.64                35                3
29        9,443        6,836            450          50         11.11               137               11
30        8,724        6,790            637          50          7.85               136              11
31       19,639        5,639          1,208         400         33.11                14                1
32       16,614        5,000          1,078          50          4.64               100                8
33       36,560        4,015          1,127          50          4.44                80                7
34        2,961        2,286            657          15          2.28               152               13
35       38,167        1,755          1,397          10          0.72               176               15
36        2,665        1,265            737         100         13.57                13                1
      1,516,811      976,600        37,481        6,519         17.39               150               12

      Note: Items in bold are discussed as examples in the body of the report.
                  Appendix D

Agency Comments
                                 SOCIAL SECURITY

MEMORANDUM


Date:      September 7, 2007                                            Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, “Disability Insurance Beneficiaries
           Convicted of Crimes Against the Social Security Administration’s Programs” (A-06-
           06-16132)—INFORMATION


We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
are attached.

Please let me know if we can be of further assistance. Staff inquiries may be directed to
Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at 410 965-4636.

Attachment:
SSA Response




                                                D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “DISABILITY INSURANCE BENEFICIARIES CONVICTED OF CRIMES
AGAINST THE SOCIAL SECURITY ADMINISTRATION’S PROGRAMS”
(A-06-06-16132)

Thank you for the opportunity to review and provide comments on this draft report. As part of
our commitment to protect our programs through superior stewardship, we strive to meet our
objective to detect and prevent fraudulent and improper payments and improve debt
management. As described in Recommendation 3, while we have implemented some automated
procedures to address convictions for fraudulent concealment of work activity, based on the
results of this review, we will continue to evaluate and develop further enhancements in this
regard. Our responses to the specific recommendations are as follows:

Recommendation 1

The Social Security Administration (SSA) should enhance overpayment collections in the cases
OIG identified where monthly benefits are not being withheld at the full monthly amount until
the overpayment is recovered.

Comment

We agree. We will review the individual cases where full withholding of the overpayment is not
taking place and determine the appropriate action to take. Regarding the findings for partial
withholding, Program and Operations Manual System (POMS) policy, GN 02201.055,
Overpayment Recovery after Fraud Conviction, states that full withholding is required from any
payable SSA benefits unless exceptions apply. However, current operating policy in that POMS
section also states that “even though SSA regulations prohibit partial withholding in fraud cases,
if the court orders partial withholding, SSA must honor the order.”

Recommendation 2

SSA should remind staff to annotate the Master Beneficiary Record (MBR) with a special
message and fraud indicator when recording an overpayment related to a conviction.

Comment

We agree. A reminder will be issued by the end of September 2007.

Recommendation 3

SSA should evaluate current income verification procedures and review the claims associated
with the 17 individuals who are receiving benefits and had recent earnings. Any potentially
fraudulent cases should be referred to the OIG Office of Investigations.




                                               D-2
Comment

We agree. We have received a listing of the 17 cases and will review those cases to determine
what actions we have already taken regarding the posted work, and what additional action(s)
should be taken. The report should note that we currently have an automated procedure in place
that addresses convictions for fraudulent concealment of work activity in the Trial Work Period
(TWP). Specifically, the Disability Control File is updated to reflect fraud and an update is sent
to the MBR to suspend benefits, using a fraud Reason for Suspension or Termination code for
the TWP months involved. This suspension results in the posting of payments as an
overpayment. Other systems used to control work issues in field offices or eWork, have also
been modified to support this enhancement. If we determine that additional controls are needed
with regard to fraud or verification of earnings, we will work to determine improvements and
what role automation can play in the process. We will refer any potentially fraudulent cases
identified to the OIG Office of Investigations.




                                               D-3
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Lawson, Director, (410) 965-8071

   Ron Gunia, Audit Manager, (214) 767-6620


Acknowledgments
In addition to those named above:

   Erica Turon, Program Analyst

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-06-16132.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
